OIG Investigative Reports, Leader of Federal Student Loan Fraud Ring Pleads Guilty to Mail Fraud and Aggravated Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney Benjamin B. Wagner
Eastern District of California
For Immediate Release
Monday, February 28, 2011
www.usdoj.gov/usao/cae
Contactt: Lauren Horwood
(916) 554-2706
usacae.edcapress@usdoj.gov
Docket #: 2:09-CR-00422-WBS
Leader of Federal Student Loan Fraud Ring Pleads Guilty to Mail Fraud and Aggravated Identity Theft
SACRAMENTO, Calif. — United States Attorney Benjamin B. Wagner announced that Nakesha Sharrieff, aka Takiyah Raheem and Asiya Hanifah Kahan, 24, of Sacramento, pleaded guilty today before Senior United States District Judge William B. Shubb to a conspiracy to commit student loan fraud and aggravated identity theft. Sharrieff is the fourth defendant in the case to plead guilty.
This case is the product of an extensive investigation by the United States Department of Education, Office of the Inspector General and the Los Rios Community College Police Department. Assistant United States Attorney Jean M. Hobler is prosecuting the case.
Sharrieff admitted in her guilty plea that she began participating in a scheme to obtain federal student loan funds in September 2004, and eventually led the scheme herself. Sharrieff began by submitting an application for student loan funds for community college, although she had no intention of attending and never did attend classes. Once Sharrieff took over the scheme, she obtained others’ personal information, with or without their consent, and used recruiters, including co-defendants Jarmal Duplessis, 22; Teaona Williams, 24; Hoa “Tasha” Kelly, 24; and Jewel Minor, 24, all of Sacramento, to recruit additional “straw” students to provide personal information for the purpose of fraudulently applying for and obtaining additional federal financial aid. Sharrieff also used the addresses of Williams, Kelly, and Minor, among others, to apply for funds, and to avoid detection by having too many applications associated with a single address. Sharrieff split the student loan funds with the “straw” students, who in some cases also paid part of the proceeds to the recruiter who brought them into the scheme.
In one instance, Sharrieff used stolen personal information of a woman with no connection to Sharrieff, applied for and obtained aid in her name, and got a student identification card with Sharrieff’s picture but with the victim’s name, for the purpose of cashing aid checks issued in the victim’s name. In total, Sharrieff fraudulently applied for federal financial aid funds for more than 60 people, the majority of whom willingly participated in the scheme. The total federal financial aid funds paid to Sharrieff and her co-conspirators in the scheme exceeded $200,000.
Five other defendants were charged in the case; three of whom have already pleaded guilty. Co-defendant Duplessis pleaded guilty on August 9, 2010 and was sentenced on November 8, 2010 to nine months in prison, three years of supervised release, and $23,294.70 in restitution. Minor pleaded guilty on September 27, 2010 and on December 13, 2010, was sentenced to two years in prison, three years of supervised release, and $118,843.72 in restitution. Thomas Keys, 23, of Sacramento, pleaded guilty on October 4, 2010, and is expected to be sentenced on March 7, 2011. Charges are pending against co-defendants Kelly and Williams.
“In these tough economic times, many Americans want to improve their circumstances by getting a college education, and many can only do so through the federal financial aid program,” said United States Attorney Wagner. “Fraudulent student loan schemes like Nakesha Sharrieff’s steal that opportunity from hard-working Americans, depriving real students of financial assistance and spots in the classroom. We take these crimes very seriously, and will prosecute those who game the system to make a quick dollar.”
Sharrieff is scheduled to be sentenced by Judge Shubb on May 16, 2011, at 8:30 a.m. For the loan fraud conspiracy, she faces a maximum sentence of five years in prison, a $250,000 fine, or both. For the identity theft, Sharrieff is facing a mandatory two-year prison term, consecutive to the sentence imposed for the fraud. The actual sentence, however, will be determined at the discretion of the court after consideration of any applicable statutory factors and the Federal Sentencing Guidelines, which take into account a number of variables.
As to the charged defendants, the charges are only allegations and the defendants are presumed innocent until and unless proven guilty beyond a reasonable doubt.
Printable view
Last Modified: 03/01/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov